OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/BOLIVIA’S
INTEGRATED FOOD SECURITY
PROGRAM

AUDIT REPORT NO. 1-511-11-006-P
JULY 28, 2011




SAN SALVADOR, EL SALVADOR 

Office of Inspector General


July 28, 2011

MEMORANDUM

TO:    	        USAID Bolivia Mission Director, Wayne Nilsestuen

                USAID Office of Acquisition and Assistance Director, Maureen Shauket

FROM: 	         Regional Inspector General/San Salvador, Catherine Trujillo /s/

SUBJECT:	       Audit of USAID/Bolivia’s Integrated Food Security Program
                (Report Number 1-511-11-006-P)

This memorandum transmits our report on the subject audit. In finalizing the report, we carefully
considered your comments on the draft report and have included the comments in their entirety
in Appendix II.

The report includes 12 recommendations. On the basis of actions taken by the mission, we
determined that final action has been taken on Recommendations 8 and 9, and management
decisions have been reached on Recommendations 1, 2, 3, 4, 5, 6, 7, 10, 11 and 12. Please
provide the Audit Performance and Compliance Division in the USAID Office of the Chief
Financial Officer with the necessary documentation to achieve final action.

I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
Tel. (503) 2501-2999—Fax (503) 2228-5459
www.usaid.gov/oig
CONTENTS

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 5 


     Program Design Incorporated Sustainable Development Methods ........................................ 5 


     USAID/Bolivia Did Not Develop 

     Appropriate Program Funding Plans ...................................................................................... 6 


     USAID/Bolivia Overobligated Program Funds ........................................................................ 8 


     USAID/Bolivia Did Not Clearly Define Program Indicators...................................................... 9 


     USAID/Bolivia Did Not Consistently Report Earmark Funds................................................. 11 


     USAID/Bolivia Faces Potential Problems with a Subgrantee................................................ 12 


     USAID/Bolivia Was Not Monitoring Cost Sharing ................................................................. 14 


     USAID Did Not Obtain an Audit of Abt’s Accounting System................................................ 15 


Evaluation of Management Comments................................................................................... 17 


Appendix I – Scope and Methodology .................................................................................... 19 


Appendix II – Management Comments ................................................................................... 20 


Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
AO              assistance objective
CFR             Code of Federal Regulations
CPTS            Center for Promotion of Sustainable Technologies (Spanish acronym)
DCAA            Defense Contract Audit Agency
EPA             U.S. Environmental Protection Agency
FACTS           Foreign Assistance Coordination and Tracking System
FAR             Federal Acquisition Regulation
FY              fiscal year
GH/CS           Global Health/Child Survival
IFS             Integrated Food Security
PMP             performance management plan
OIG             Office of Inspector General
SEGE            Office of Sustainable Economic Growth and Environment
SUMMARY OF RESULTS

Bolivia is one of the poorest and least developed countries in Latin America. Sixty percent of
Bolivia’s population lives in poverty and 38 percent lives in extreme poverty (77 percent in rural
areas). In a 2008 publication, Confronting Food Insecurity in the LAC Region Under Rising
Food Prices, Bolivia was ranked as the third highest food insecure country in Latin America.
Despite its high incidence of malnutrition and poverty, Bolivia was not included as a beneficiary
for USAID’s new poverty and hunger program Feed the Future. USAID/Bolivia programs
addressing reduction of hunger and poverty, Food for Peace1 and the Market Access and
Poverty Alleviation II2 Program, were discontinued in 2009 and 2010, respectively. The
Integrated Food Security (IFS) Program, implemented under a contract with Abt Associates,
Inc., is USAID’s sole program focused on food insecurity in Bolivia.

The stated goal of USAID/Bolivia’s IFS program is to increase food security and decrease
chronic malnutrition3 in selected rural areas of the country. USAID’s definition of food security is
fourfold: (1) food availability, (2) food access, (3) food utilization, and (4) reduced risk of
vulnerability against natural shocks. The IFS program has seven objectives for achieving its
goal: (1) improve food availability, (2) increase food access, (3) reduce maternal and child
malnutrition, (4) address lack of rural infrastructure, (5) reduce threats to biodiversity, (6) build
resilience to climate change impacts, and (7) strategically develop a value chain for production
of quinoa.4 According to USAID/Bolivia’s contract with Abt, the program is to be implemented in
at least 18 municipalities in central Bolivia (shown in the map on page 4).

Abt is implementing the IFS program under a 5-year, cost-plus-fixed-fee completion form task
order for the period September 30, 2009, through September 29, 2014. Originally funded for
$24 million, the award was increased to $26.3 million on September 27, 2010. As of April 2011,
cumulative obligations and expenditures under the program totaled approximately $11.5 million
and $3.6 million, respectively. Funding for the integrated IFS program comes from four
sources—maternal and child health, nutrition, biodiversity, and agriculture—with agriculture
funds making up the largest percentage.

The contract contained 54 tasks to achieve the program objective, and USAID/Bolivia and Abt
agreed on 34 performance indicators to measure program achievements. To implement
projects in communities within the 18 selected municipalities, the IFS program budget includes
$8.8 million in subawards, representing 33 percent of the award amount.

The objective of this audit was to determine whether USAID/Bolivia’s Integrated Food Security

1
  Administered by USAID, Public Law 480, Title II–Emergency and Private Assistance (also known as
Food for Peace), provides for the donation of U.S. agricultural commodities to meet emergency and
nonemergency food needs in other countries, including support for food security goals.
2
  The purpose of the Market Access and Poverty Alleviation II Program was to raise incomes for rural
Bolivians by increasing entrepreneurs’ access to agricultural technology and marketing services.
3
  Malnutrition is a general term that indicates a lack of some or all nutritional elements necessary for
human health, including protein-energy malnutrition (the lack of enough protein and food that provides
energy) and micronutrient (vitamin and mineral) deficiency. The World Health Organization has an index
for determining malnutrition in children based on weight, height, and age.
4
  Quinoa is a cereal crop that has been cultivated as a dietary supplement in the Andean highlands since
3,000 B.C. Quinoa is considered a nutritional food, based on its amino acid composition; high content of
calcium, phosphorus, and iron; and low sodium content.
Program is achieving its intended results of increasing food security and decreasing chronic
malnutrition in rural areas. In addition, the Inspector General Act of 1978 requires auditors to
promote economy, efficiency, and effectiveness in the administration of USAID programs and to
prevent and detect fraud and abuse in such programs and operations.

After 1 year of operation, the IFS program had barely begun to implement its 47 proposed
projects in seven5 municipalities. Although it is too early to assess the impact of these initial
projects, the program as a whole is unlikely to achieve its planned results. USAID/Bolivia has
undertaken discussions with Abt to redesign the program, which could include a change of
program objective, reduction in number of municipalities assisted, elimination or redefinition of
the 54 tasks, and a material reduction in the number of program indicators.

In addition, future agricultural funding for USAID/Bolivia will play a critical role in the success of
the program. The biggest source of IFS program funding is from agriculture funds. The
proposed fiscal year (FY) 2012 budget for USAID/Bolivia eliminates agriculture funds. If there is
no change in the FY 2012 budget, the program may not survive unless USAID/Bolivia finds a
creative work-around for funding.

During the IFS program’s design, USAID/Bolivia incorporated USAID’s methodology for
sustainability to help ensure that the program will have long-lasting impacts in the limited
number of communities selected for implementation (page 5). However, the audit identified
various issues that USAID/Bolivia should address to help ensure that the IFS program achieves
its intended results and avoids future problems. Specifically—

	 USAID/Bolivia did not adequately plan the award budget to achieve the results at the level
   the program intended. As of April 2011, Abt has signed awards representing 76 percent of
   the subaward budget to implement 21 of 47 planned projects. In addition, an increase in the
   award amount did not lead to the intended expansion of program activities, calling into
   question the allowability of the additional fee (page 6).

	 USAID/Bolivia overestimated the rate at which the program would spend its funds, resulting
   in an overobligation of program funds that could have been put to other uses (page 8).

	 Performance indicators were not well defined, resulting in sparse information regarding what
   the program will achieve. In addition, no outcome indicators were specifically identified for
   determining whether the program’s overall goals have been achieved (page 9).

	 Earmark funds were not being consistently reported between offices because of a lack of
   coordination between program offices. The lack of coordination also resulted in the IFS
   program not obtaining technical expertise needed for the integration of different disciplines
   (page 11).

	 A subgrantee is performing on two concurrent USAID awards for different aspects of the
   same project. There is a potential for award funds to be commingled. In addition, these
   awards include patentable products, and USAID should ensure that it obtains the licensing
   rights. The grantee has also developed and used a pesticide that has not yet been
   approved by the U.S. Environmental Protection Agency (EPA) (page 12).



5
    Initially there were eight municipalities; however, one dropped out.


                                                                                                    2
	 The audit identified a potential for fraud in the community cost-share component of the IFS
   program grants and subcontracts. One subcontractor created an agreement with a local
   community that was not transparent or made known to Abt. In addition, it was not clear if
   the subcontractor was overcompensated through payment in the subcontract for work and
   funds provided by the community. Other IFS subcontracts are also vulnerable to potential
   abuse (page 14).

	 The accounting system had not been audited in the past 10 years even though Abt
   implemented a new accounting system in 2003, potentially putting taxpayer dollars at risk
   (page 15).

To assist USAID in improving the efficiency and effectiveness of its integrated food security
program, this report recommends that USAID/Bolivia—

1. 	Determine how the remaining budget can be allocated to effectively implement the
    remainder of the program projects (page 8).

2. 	Determine the allowability of, and collect as appropriate, the questioned fixed fee in the
    amount of amount $143,395 (page 8).

3. 	 Deobligate funds exceeding amounts required by the program (page 9).

4. 	Update the performance management plan (PMP) to include clearly identified outcome
    indicators (page 10).

5. 	 Update the PMP to define all performance indicators (page 11).

6. 	 Ensure that all earmark funds are properly reported (page 12).

7. 	Conduct an audit of the subgrantee Center for Promotion of Sustainable Technologies
    (CPTS) by year end (page 14).

8. 	Take steps to ensure that USAID obtains the nontransferable, irrevocable, and paid-up
    license for equipment and pesticide developed under the USAID awards (page 14).

9. 	 Evaluate whether or not the existing quinoa pesticide could be utilized in the program and, if
     not, obtain an opinion from the EPA for the use of the newly developed pesticide (page 14).

10. Review A 	 bt subcontracts related to cost-sharing activities to determine whether
    subcontractors are overcompensated through subcontract work duplicated by work or cash
    provided by the community cost share (page 15).

11. Ensure that	 Abt provides a monitoring plan to ensure that community cost-sharing
    contributions are not abused (page 15).

The report further recommends that—

12. USAID’s Office of Acquisition and Assistance contract with the Defense Contract Audit Agency
    to conduct an audit to determine the adequacy of Abt’s accounting system (page 16).



                                                                                                 3
Detailed findings follow. Our evaluation of management comments is on page 17. The audit
scope and methodology are described in Appendix I (page 19), and management comments are
presented in Appendix II (page 20).


                           Map of Planned Program Municipalities




Source: Bolivia Integrated Food Security Project - Performance Management Plan




                                                                                      4
AUDIT FINDINGS 

Program Design Incorporated
Sustainable Development Methods
According to USAID guidance:6

          Development is “sustainable” when it permanently enhances the capacity of a society to
          improve its quality of life….Sustainable development mandates participation. It must be
          based on the aspirations and experience of ordinary people, their notion of what
          problems should be addressed, and their consultations with government, development
          agencies, and among themselves. Sustainable development requires investments in
          human capital—in the education, health, food security, and well-being of the population.

Additional USAID guidance7 describes benefit sustainability:          Within the development
community, sustainability refers to the ability of benefit flows to be maintained after project
funding ceases. Components of benefit sustainability include—

     Analysis of host government policies that support or constrain program objectives
     National and/or local commitment to project goals
     Program technology appropriate to the recipient country’s financial, ecological, and
      institutional capabilities, well integrated into the country’s social and cultural setting
     Community participation
     Ecological soundness
     Technical assistance oriented toward transferring skills and increasing institutional capacity
      and ability of the project to provide training to transfer the skills needed for capacity building
     Host country perception that the project is “effective”
     The degree of the program’s integration into the existing institutional framework
     Analysis of external political, economic, and environmental factors

USAID incorporated many of these sustainable development concepts into the IFS program
design. For instance, USAID designed the IFS program to align closely with Government of
Bolivia plans and policies on poverty reduction and food security: the Plan to Alleviate Extreme
Poverty, the Desnutrición Cero (Zero Malnutrition) Program, and the National Development
Plan. Because ongoing tension has hindered interaction between USAID and the Bolivian
government, USAID focused its cooperation on local governments, designing projects in
conjunction with local government and with community input, and obtaining written
commitments for funds from the local governments.

Abt’s initial assessment of food security in targeted Bolivian municipalities included evaluation of
constraints and opportunities to benefit various sectors, such as climate change, energy,
agricultural production, biodiversity, food security, and health and sanitation. Abt collected
baseline information for each of seven targeted municipalities at the start of the program to
obtain an understanding of specific conditions related to the program objectives. Abt also

6
    USAID's Strategy for Sustainable Development: An Overview.
7
    Theory and Practice in Sustainability and Sustainable Development.


                                                                                                      5
conducted an environmental assessment to determine environmental impact and possible
remedial actions.

In addition, each project requires community contributions. Abt provides community-based
training to explain the importance of the proposed project. To comprehensively address food
security, the program strives to integrate a variety of disciplines, including agriculture, health,
biodiversity, and climate change, as shown in the following examples:

	 In Caracollo, Abt used an integrated methodology to improve nutrition and maternal and
   child health while addressing climate change. The project taught community members
   about good nutrition, provided new recipes for more balanced nutrition, and constructed
   ecological stoves. The community learned the importance of including different food groups
   in the daily diet and was introduced to new recipes that combined locally available
   vegetables and eggs with a salad made from the leaves of lima beans (which traditionally
   had been fed to cattle). The beneficiaries and their children found the dishes appealing, and
   the new ecological stoves reduced the levels of unhealthy smoke while requiring less fuel to
   prepare meals. During the project, one beneficiary stated that he was taught to build
   ecological stoves.

	 In Mizque, where Abt is constructing an irrigation system, the community was required to
   obtain agreement for the project from all the surrounding communities, as the source of
   water was a communally used river. In addition, the community agreed, as part of its
   contribution, to dig the channel for the irrigation piping. When the community discovered
   that it did not have the equipment to dig through a stretch of solid rock, the community
   members raised the money to pay a subcontractor for this work. Other IFS projects
   benefiting the community include the restoration of a dairy, which will contribute milk and
   milk products for the government-sponsored school breakfast program, and the same
   nutrition and ecological stove activities provided in Caracollo.

Abt had just begun launching its projects during this audit; therefore, it is too soon to tell whether
there will be a sustainable impact. Although the program is not large scale, affecting just a few
communities in selected municipalities, if the projects prove to be sustainable, the program’s
integrated methodology might provide useful lessons for other USAID programs.

USAID Did Not Develop Appropriate
Program Funding Plans
USAID’s Automated Directives System (ADS), chapter 202.3.7, states that the USAID mission
or office and its assistance objective (AO) teams8 are responsible for managing the resources
made available to them so that planned outputs and results are achieved in a cost-effective and
timely manner, in accordance with applicable regulatory requirements.

Federal Acquisition Regulation (FAR) 16.306 (d)(1) states that a cost-plus-fixed-fee completion
form contract describes the scope of work by stating a definite goal or target and specifying an
end product. This form of contract normally requires the contractor to complete and deliver the
specified end product (e.g., a final report of research accomplishing the goal or target) within the
estimated cost, if possible, as a condition for payment of the entire fixed fee. However, if the

8
  An AO team is a group of people with complementary skills who are empowered to achieve a specific
foreign assistance result for which they are willing to be held accountable. (ADS 200.6(b))


                                                                                                    6
work cannot be completed within the estimated cost, the government may require more effort
without increase in fee, provided the government increases the estimated cost.

The audit found that an increase in the award amount has not led to an increased number of
projects as intended, and also that the budgeted amount for implementing the projects was not
sufficient to achieve stated project activity levels.

Increase in Contract Award. USAID/Bolivia increased the total estimated contract for the IFS
program by $2.3 million after the first year of implementation. However, the mission did not
base the budget increase on a sound assessment that demonstrated a need for additional
funds, but rather increased the award because of an unexpected availability of funds. Following
a request from the Government of Bolivia, USAID/Bolivia terminated its democracy program and
redistributed its allocated funds to other programs. The IFS program received $2.3 million9 from
these funds, including an additional fixed fee of $143,395, even though as of September 2010
Abt had not reported any program achievements and had hardly begun any of the 47 planned
projects. With the increased funding available, USAID/Bolivia believed that an additional 60
projects could be implemented in FY 2010.

However, while USAID/Bolivia expected to fund 60 new projects, Abt indicated that it would use
the additional funds to (1) expand funding to more community projects, (2) expand and deepen
technical coverage, and (3) support joint initiatives with other donors. Abt never agreed to
increase the number of projects by 60, and despite the increase in funding, Abt did not expand
the projects, and it actually is now proposing a reduction in the program’s scope. As of March
2011, no new projects were added. In fact, 5 projects were dropped when one municipality
refused to participate and another 8 were dropped for various reasons, reducing the total
number of projects by 13. Thus, even though the contract with Abt initially required the
implementation of projects in 18 municipalities, Abt recently proposed decreasing the program
scope to 11 municipalities and possibly retaining just the 7 current municipalities.

Inadequate Budgeting for Proposed Activities. On the basis of project funds used to date,
the audit determined that Abt underestimated the amount of project funds needed to implement
projects in the proposed 18 municipalities. Within the contract’s overall budget, USAID’s
subaward budget of $6.7 million (28 percent of the award amount) was meant to fund the
individual community projects. When USAID increased the award to $26 million, it increased
the subawards budget to $8.8 million (33 percent of award amount).10

As of March 2011, Abt had signed 26 awards to implement 21 IFS projects.11 These projects
will be implemented in seven municipalities at a cumulative cost of $6.7 million, of which $2.7
million is for program-wide projects. The total cost for 26 subawards ($6.9 million) represents
104 percent of the original budgeted amount and 79 percent of the current budget. Abt has $1.8
million to implement additional projects over the next 3 years. The Abt 5-year work plan
contains the following statement, which highlights a lack of planning for achieving the intended
level of project activity through its subawards (including both grants and subcontracts):

       A Grants and Contracts fund will be established by the project as an effective tool to
       finance the implementation of small- and medium-size projects that contribute to the

9
 A USAID memorandum authorized the reprogramming of $2.5 million for the IFS program; however, only 

$2.3 million was subsequently awarded.

10
   Sixty-seven percent of the award funds are administrative costs for running the program.

11
   Five subawards were not related to direct project activity. 



                                                                                                  7
        project’s goal and to the achievement of its seven project objectives. The fund will
        initially be established at $4 million, but can be increased at any point in implementation
        upon the agreement of Abt Associates and USAID. In fact, an increase of $2.3 million is
        already under discussion.

In its own recent evaluation of the project, Abt noted that—

        The contract budget as presently defined is insufficient to achieve desired results in the
        municipalities envisioned in the original design for five main reasons: (i) low density
        population levels in the poorest and most vulnerable communities; (ii) very limited
        presence of children under five and expectant or lactating women in the communities;
        (iii) the need to “stack” interventions in a mutually reinforcing manner given that the four
        pillars of food security are interconnected; (iv) each additional municipality entails both
        high setup and high transaction costs; and (v) some municipalities may require
        additional development partnerships, which are transaction-heavy.

USAID/Bolivia is in the process of realigning the IFS program and is considering reducing the
scope of the program from 18 municipalities to 9. The audit disclosed that the increase in the
award did not lead to a related increase in projects as USAID intended, and in fact initial funds
were not adequate to meet the proposed project levels. Thus, Abt should not be eligible for the
increased fixed fee awarded that accompanied the increase in the program award. Therefore,
this audit makes the following recommendations:

     Recommendation 1. We recommend that USAID/Bolivia determine how the remaining
     budget for the grants and subcontracts can be best used to effectively implement project
     activities needed to achieve intended goals.

     Recommendation 2. We recommend that USAID/Bolivia Office of Acquisition and
     Assistance determine the allowability of and collect as appropriate, the questioned fixed
     fee provided in Modification No. 1 to the contract, in the amount of $143,395.


USAID/Bolivia Overobligated
Program Funds
USAID ADS 202.3.7.4 states that current pipelines12 and new obligations should be adequate to
finance 12 to 24 months of planned expenditures.            This policy encourages USAID
missions/offices and AO teams to manage resource flows prudently so that scarce resources
are optimally used throughout the Agency. Further, ADS 602.3.1 states that appropriate budget
and program staff in the field and USAID/Washington must follow forward funding policy
directives and required procedures to ensure that the percentage of pipeline does not exceed
Agency standards. A balance must be achieved between providing adequate funds for activities
and the need to limit obligations to only required needs.

ADS 602.3.7 states that program managers must review annually all unliquidated obligations
and make adjustments to bring pipelines, at least at the strategic objective level, into
compliance with the forward funding policies. Any amounts identified as excessive for

12
  The amount of funds obligated but not expended; the difference between cumulative obligations and
cumulative expenditures, including accruals.


                                                                                                  8
programmatic needs may be considered candidates for deobligation.

USAID/Bolivia overobligated funds by at least $1.84 million in excess of required needs. Upon
contract award, USAID/Bolivia obligated $4.4 million of $24 million in total estimated costs. One
year later, USAID/Bolivia approved an additional $2.3 million, increasing the total obligation to
$6.7 million. USAID/Bolivia’s waiver for forward funding stipulated that obligations must be
sufficient to cover at least 18 months but no more than 24 months. USAID justified the increase
on the basis that the award was new, and had also indicated in its August 2010 pipeline review
that actual expenditures plus accruals equaled $4.1 million. However, almost 10 months after
this justification, USAID/Bolivia’s records showed actual disbursements of only $3.6 million.13
Less than a month after the $2.3 million increase, USAID issued another modification further
increasing the obligated amount by an additional $4.8 million for a total obligation of $11.5
million. Although the forward funding waiver explicitly discussed the additional $2.3 million
obligation, it made no reference to the $4.8 million added less than a month later. Table 1
summarizes amounts for the award, obligations, and actual expenditures.

                 Table 1. Summary of Award Obligations and Expenditures
                    Action                              Amount
                    Amount Original Award               $ 24,000,000
                    Amount Award after Increase         $ 26,349,481

                    Original Obligation 9/30/2009       $ 4,438,876
                    Additional Obligation 9/9/2010      $ 2,325,000
                    Additional Obligation 9/23/2010     $ 4,760,000
                    Total Obligation 9/23/2010          $ 11,523,876

                    Actual Expenditures 8/2010          $   1,690,347
                    Actual Expenditures 4/2011          $   3,580,933

If the average expenditure rate for the past 5 months14 continued over the next 18-month period,
the total expenditures would not exhaust the total $11.5 million obligated. As a result,
USAID/Bolivia’s total excess obligated funds are approximately $1.84 million. This amount of
funds may not be used within the 24-month period since the $11.5 million was obligated and is
also not available for other uses. Therefore, this audit makes the following recommendation:

     Recommendation 3. We recommend that USAID/Bolivia evaluate the Integrated Food
     Security Program’s obligations and deobligate funds exceeding amounts required by the
     program.

USAID/Bolivia Did Not Clearly
Define Program Indicators
According to USAID/Bolivia’s contract with Abt, the mission believes that an effective
performance management plan (PMP) is essential to managing for results. Therefore, the
contract calls for a PMP that specifies indicators, targets, and methodologies that allow the
13
  Actual expenditures means expenditures billed to USAID and disbursed.

14
  As expenditure rate can be slow during the first year, the last 5 months are used to calculate an 

average rate of expenditure (based on billed and disbursed amounts). The program started in September 

2009 and the expenditure rate is based on expenditures billed from November 2010 through March 2011.



                                                                                                    9
contractor to monitor the progress of project activities toward achieving key milestones and
results related to project objectives, expected outcomes, and measures of accountability.

Furthermore, ADS 203.3.4.2(a) states that performance indicators should be precisely defined
in the PMP. In addition, USAID Best Practices Guidance15 states that at a minimum, PMPs
should include a detailed definition of each performance indicator and the source, method,
frequency, and schedule of data collection. As part of the PMP process, USAID guidance
suggests but does not mandate that operating units plan for how the performance data will be
analyzed, and how they will be reported, reviewed, and used to inform decisions.

Though the agreement between USAID/Bolivia and Abt clearly states the importance of an
effective PMP for managing for results, the IFS program’s PMP does not contain clearly defined
indicators for measuring the accomplishment of the program’s stated goal, which is to increase
food security and decrease chronic malnutrition in rural areas of Bolivia through an integrated
approach that addresses food availability, access, use, and vulnerability.

Although the IFS program’s PMP indicates that 16 of the 34 indicators will show the desired
program results, Abt officials asserted that they are using just one of the PMP indicators to
measure overall program success:          percentage of decrease in prevalence of chronic
malnutrition in children under 5 years of age. Abt set a target for this goal originally at
10 percent and in a revised version of the PMP reduced the target to 5 percent.

Because Abt’s PMP did not include definitions for each of the indicators, the auditors asked Abt
officials to explain what the indicator would measure. Abt officials stated that the target
population for this specific indicator is based on the total approximate population of 22,000
children under the age of 5 living in eight16 municipalities. Abt measured the height and weight
of 2,500 children living in the selected communities. To achieve the overall goal for reducing
the malnutrition of the target population by 5 percent, at the end of 5 years 1,100 of the targeted
children would have to have a weight and height that places them outside the malnourished
category.

Having a clear definition of the indicator is important to enable USAID and other concerned
parties to better understand how exactly the program defines successful results, how this
information will be obtained, and what parameters will define success—in this case, a reduction
by 5 percent in the malnutrition of a population of 22,000 children within eight municipalities.

To use performance information for assessing progress in achieving results and in making
management decisions on improving performance, it is important that USAID know precisely
what the performance indicators are measuring. USAID is currently reevaluating the IFS
program design, and Abt has recommended revision of the overall program objective and a
significant decrease in the number of program indicators. It is a timely juncture to ensure that all
performance measures included in the PMP are well defined and that the program has identified
outcome indicators. Therefore, this audit makes the following recommendations:

     Recommendation 4. We recommend that USAID/Bolivia update the Integrated Food
     Security Program performance management plan to clearly identify the outcome
     indicators that will measure achievement of the program goal.

15
  USAID TIPS 7 Preparing a Performance Monitoring Plan. 

16
  Although only selected communities within the seven municipalities are receiving program benefits 

currently, children from eight municipalities were used for the baseline for this indicator.



                                                                                                 10
       Recommendation 5. We recommend that USAID/Bolivia update the Integrated Food
       Security Program performance management plan to include definitions for each
       performance indicator including the source, method, frequency, and schedule of data
       collection.

USAID/Bolivia Did Not
Consistently Report
Earmark Funds
The IFS program is part of USAID/Bolivia’s Sustainable Economic Growth and Environment
(SEGE) Program. However, because the IFS is an integrated program with activities supporting
health, economic growth, and the environment, the mission is funding this project with multiple
sources, including funds for mother and child health, nutrition, and biodiversity. USAID
guidance on use of Global Health/Child Survival (GH/CS) funds states that these funds can be
used with other funds in a single integrated program; however, GH/CS funds must be used for
the purposes intended by Congress and must be accounted for and reported on separately.
Therefore, the GH/CS funds are limited to a specified use, and program achievement is
reported through predefined indicators in USAID’s Foreign Assistance Coordination and
Tracking System (FACTS).

However, for IFS activities funded with GH/CS earmarked funds, the IFS FACTS program
indicators are not in complete accordance with indicators used by the USAID/Bolivia Health
Office for reporting purposes, even though the program activities are the same.

A USAID/Bolivia Health Office official raised two concerns with respect to the IFS program.
First, she noted that the IFS indicators focused on measuring the progress under the GH/CS
health areas are not consistent with the indicators used by the Health Office. Second, she was
concerned that the mission did not report the FY 2010 annual results from GH/CS funds spent
under the IFS program. Despite the fact that IFS spent GH/CS funds in FY 2010, there were no
target goals for the associated indicators in the program PMP for FY 2010; these goals were
first established for FY 2011. Table 2 illustrates the difference between the indicators used by
the USAID/Bolivia Health office and the IFS program. The only two consistent indicators are the
first two listed.

                                       Table 2. Health Indicators
IFS Health Indicators                                USAID/Bolivia Health Office Indicators

Number of cases of children with diarrhea            Number of cases of child diarrhea treated in
treated by U.S. Government-supported health          U.S. Government-assisted programs
programs
Number of children reached by U.S.                   Number of children reached by U.S. Government-
Government-supported nutrition programs.             supported nutrition programs
Number of people in target areas with access to      Number of children less than 12 months of age who
improved sanitation facilities as a result of U.S.   received DPT317 from U.S. Government-supported
Government assistance.                               programs




17
     DPT3 is a vaccine against diphtheria, pertussis (whooping cough), and tetanus.


                                                                                                    11
Number of pregnant women with a prenatal visit    Number of antenatal care visits by skilled providers
before the fifth month of pregnancy               from U.S. Government-assisted facilities
Increase of integral AIEPI NUT18 attention of     Number of newborns receiving essential newborn
children under 5 years of age                     care through U.S. Government-supported programs
Number of people in target areas with access to
improved drinking water supply as a result of
U.S. Government assistance.

The inconsistencies in health indicators between the IFS program and the USAID/Bolivia’s
Health Office occurred because of a lack of coordination between the USAID/Bolivia SEGE
Office and the Health Office during the IFS program design. According to a prior mission official
associated with the IFS program, during the IFS program’s design the SEGE office made a
strong effort to coordinate with the Health Office, particularly because the Health Office could
provide technical expertise regarding the program’s health aspects. However, a Health Office
official asserts that she was unaware that the IFS program had a health component, even
though an official in USAID/Bolivia’s Front Office stated that the Health Office signed off on the
IFS program design.

As part of the IFS program realignment process, Abt has suggested eliminating three IFS health
indicators, one of which the Health Office would like to retain as it is among the indicators on
which it is reporting. To ensure that all earmarked funds are properly included and reported on,
this audit makes the following recommendation:

     Recommendation 6. We recommend that USAID/Bolivia evaluate indicators for
     earmarked funds for the Integrated Food Security Program and ensure that the indicators
     are in accordance with the mission strategy and reporting requirements.

USAID/Bolivia Faces
Potential Problems With a
Subgrantee
One of the seven objectives of the IFS program is to strategically develop a quinoa value chain.
To achieve this objective, in October 2010, Abt awarded a $2.2 million, 4-year grant to a local
business, Center for Promotion of Sustainable Technologies (CPTS, acronym in Spanish). The
audit identified some potential areas of risk associated with this grant, including its overlap with
a current direct award with USAID/Bolivia, USAID’s rights to invented equipment, and use of
nonapproved pesticides.

Overlapping Awards to Subgrantee. In addition to its subgrant with Abt, USAID/Bolivia
awarded CPTS a cooperative agreement that overlaps with the IFS subgrant in time and
purpose. As a result, the work performed and funds used could be intermingled.

In September 2006, USAID/Bolivia awarded a cooperative agreement to CPTS that included the
design and utilization of quinoa harvesting equipment. The agreement was scheduled to end in
September 2010; however, USAID/Bolivia provided a no-cost extension for the award until June
2011 and is in the process of extending the award to December 2011. Additionally, under the

18
  AIEPI-NUT is the operative strategy for the Bolivian Zero Malnutrition Program addressing children
under 5 years of age with emphasis in the valuation, detection, treatment, and prevention of
undernourishment, incorporating new growth curves from the World Health Organization.


                                                                                                     12
IFS program, Abt awarded a $2.2 million grant to CPTS in October 2010 to validate the same
equipment that CPTS is to develop under its cooperative agreement with USAID/Bolivia.

According to a USAID official, as of April 28, 2011, CPTS had neither built nor tested any of the
machinery called for under USAID/Bolivia’s direct award. The extension of the cooperative
agreement allows CPTS to complete the equipment, and Abt’s subagreement with CPTS
provides the funds for testing the equipment over the next 3 years. Testing of some of the
equipment is planned for December 2011.

According to USAID Mandatory Standard Provisions For Non-U.S., Nongovernmental
Recipients, USAID funds shall not be commingled with other recipient-owned or -controlled
funds, and the recipient shall deposit all USAID cash advances in a separate bank account and
shall make all disbursements for goods and services from this account. Furthermore, these
provisions state that in addition to the required annual audits of foreign recipients and
subrecipients that are for-profit and nonprofit organizations and expend $300,000 per year,
USAID shall retain the right to conduct a financial review, require an audit, or otherwise ensure
adequate accountability of organizations expending USAID funds even if the $300,000 threshold
is not reached. Lastly, agreement officers are responsible for determining that applicable
administrative actions and all required work of the award have been completed by the recipient
in accordance with 22 CFR 226. Given the overlap of the direct and subgrant awards to CPTS,
it is prudent for USAID to exercise due care to ensure that CPTS is complying with these award
provisions.

Intellectual Property Rights. CPTS is developing new equipment for quinoa planting and
harvesting. CPTS is also seeking to obtain patents for this equipment. If the equipment proves
successful, USAID could utilize the rights to this equipment for other projects in quinoa­
producing countries. However, USAID/Bolivia officials indicated that it may have problems with
securing its rights to the equipment proposed for patent. Although the equipment design began
in 2006 under a prior award, according to a USAID/Bolivia official no one in the mission has
seen any of the blueprints. The official who took over the program in January 2011 stated that
he has asked for the blueprints but has not received them.

ADS 318.3.1.1 states that USAID partners may acquire the patent rights to subject inventions.
Subject inventions are inventions conceived or reduced to practice under a U.S. Government
contract or agreement. If a partner elects to retain the title to any subject invention, the U.S.
Government must receive a nonexclusive, nontransferable, irrevocable, and paid-up license to
practice, or have practiced for or on behalf of the United States, the subject invention throughout
the world.

Use of Unapproved Pesticides. Under its direct award with USAID/Bolivia, CPTS designed an
organic pesticide that it also intends to patent. This pesticide uses the outer covering of the
quinoa plant, called saponin, as an active ingredient. CPTS stated it has already applied the
pesticide on approximately 4,000 acres in the past year. A USAID representative stated that the
pesticide was used for a USAID Global Development Alliance program, under strict supervision
and that the pesticide has not been promoted to farmers. In September 2005 the EPA
registered a pesticide using the active ingredient of the quinoa saponin, under the name of
Heads Up® Plant Protectant. The EPA states that no harmful effects are expected to wildlife or
the environment from saponin if users follow the directions for use on the label. It is not known
if the CPTS pesticide is based on the same or different ingredients as the pesticide approved by
the EPA. If the ingredients are the same, then it is unclear why USAID/Bolivia did not choose to
use an already vetted product instead of fund the development of a new product. However, if


                                                                                                13
there is a significant difference in CPTS’s pesticide it should go through EPA’s vetting process
to determine that it is safe for the intended uses.

The Code of Federal Regulations (22 CFR 216.3 (b)(1)(i)) provides guidance on the use of
pesticides and states that factors to be considered include the EPA registration status of the
requested pesticide; the proposed method or methods of application, including availability of
appropriate application and safety equipment; the compatibility of the proposed pesticide with
target and nontarget ecosystems; the availability and effectiveness of other pesticides or
nonchemical control methods; and the provisions made to monitor the use and effectiveness of
the pesticide. As CPTS officials believe they have produced a new organic pesticide, USAID
should obtain verification from the EPA regarding any potential harm with the use of this
pesticide on USAID projects. To ensure that the above matters are resolved quickly and without
further complications, this audit makes the following recommendations:

   Recommendation 7. We recommend that USAID/Bolivia ensure that an audit of the
   Center for Promotion of Sustainable Technologies is conducted by fiscal year end to
   ensure the separation of the funds for the separate awards.

   Recommendation 8. We recommend that USAID/Bolivia take steps to enter into a
   binding agreement with the Center for Promotion of Sustainable Technologies to receive
   the nontransferable, irrevocable, and paid-up license for equipment and pesticide
   developed under the USAID awards.

   Recommendation 9. We recommend that USAID/Bolivia evaluate whether or not the
   existing quinoa pesticide could be utilized in the program and if not, obtain an opinion from
   the U.S. Environmental Protection Agency for the use of the newly developed pesticide.

USAID/Bolivia Was Not
Monitoring Cost Sharing
ADS 590.3.2.3 states that auditors are required to be alert to situations or transactions that
could be indicative of fraud, illegal acts, or abuse. In addition, the Inspector General Act of 1978
requires auditors to prevent and detect fraud and abuse in U.S. Government programs and
operations.

Abt has 11 subcontracts for the direct implementation of project activities in target communities.
Although these awards fund much of the work to be performed, Abt also requires the target
communities to make contributions to support project implementation. During a site visit, the
audit identified a risk of fraud related to this community cost-sharing requirement.

As part of an IFS irrigation project being implemented by a subcontractor, the local community
had committed to dig an irrigation channel as their in-kind cost-sharing contribution. When the
community discovered a stretch of solid rock blocking their route, they agreed to pay the
subcontractor to complete the excavation. The community members stated that 280 families
contributed $54 each to the project, thus raising approximately $15,000 to be paid to the
subcontractor upon completion of the work.

Abt officials were unaware that the community had agreed to make a cash contribution in place
of the in-kind contribution. When Abt asked the subcontractor about the arrangement, the
subcontractor produced an estimate in the amount of $2,004 for its work on behalf of the



                                                                                                   14
community. At the time of the audit, the work had not been completed and the community had
not paid any funds to the subcontractor.

Abt officials stated that all of their subcontracts reflect the planned community cost-sharing
contribution. However, the subcontract for the irrigation project contained no allowance for the
community cost-sharing effort and instead stated that the subcontractor would complete all
necessary excavation work. Therefore, it appears that Abt agreed to pay the subcontractor for
the same excavation work that the community was providing as its cost-sharing effort. This
same situation may be happening with the other Abt subcontracts.

The IFS program is working in some of the poorest communities in Bolivia. The interests of the
communities served pertaining to the community cost-sharing component should be protected
through the oversight of the subawardees. Therefore, this audit makes the following
recommendations:

     Recommendation 10. We recommend that USAID/Bolivia review Abt Associates, Inc.
     subcontracts related to cost-sharing activities to determine whether subcontractors are
     overcompensated through subcontract work that is duplicated by work or cash provided
     by the community cost share.

     Recommendation 11. We recommend that USAID/Bolivia ensure that Abt Associates,
     Inc. provides a monitoring plan to ensure that community cost-sharing contributions are
     not abused.

USAID Did Not Obtain an
Audit of Abt’s Accounting System
FAR 16.301-3 states that a cost-reimbursement contract may be used only when (1) the
contractor’s accounting system is adequate for determining costs applicable to the contract, and
(2) appropriate government surveillance during performance will provide reasonable assurance
that efficient methods and effective cost controls are used. Additionally, FAR 16.306(c) states
that a cost-plus-fixed-fee contract shall not be awarded unless the contracting officer complies
with all limitations in 15.404-4(c)(4)(i) and 16.301-3.19

USAID lists Abt as the 16th of its top 20 vendors, receiving $203 million in awards in FY 2010
and $98 million as of March 31, 2011. However, USAID has not audited Abt’s accounting
system since 2000.

A recent Defense Contract Audit Agency (DCAA) audit report of Abt for FY 2005 Incurred Cost20
stated that during FY 2003, Abt changed its accounting system, fully implementing the new
system by the end of the fiscal year. However, as of September 23, 2009, DCAA had not
received funding to perform an Internal Control Audit Planning Summary review of Abt’s
accounting system to determine whether it is adequate for accumulating and reporting costs
under government contracts.

The FY 2005 DCAA audit did not observe any internal control deficiencies or weaknesses

19
   FAR 15.404-4(c)(4)(i) states that the contracting officer shall not negotiate a fee that exceeds 

10 percent of the estimated costs excluding fees on cost-plus-fixed-fee contracts.

20
   DCAA Audit Report No. 2171–2005J10100002, September 23, 2009.



                                                                                                15
related to the accounting system as a whole. Nonetheless, without information on the adequacy
of Abt’s accounting system USAID does not know whether the system is adequate for
accumulating and reporting costs under government contracts, thereby putting U.S. taxpayer
money at risk. Therefore, this audit makes the following recommendation:

   Recommendation 12. We recommend that USAID’s Office of Acquisition and
   Assistance contract with the Defense Contract Audit Agency to conduct an audit to
   determine the adequacy of the Abt Associates, Inc. accounting system.




                                                                                          16
EVALUATION OF
MANAGEMENT COMMENTS
After evaluating USAID/Bolivia’s comments on the draft report, final action has been reached on
Recommendations 8 and 9. Management decisions have been reached on Recommendations
1, 2, 3, 4, 5, 6, 7, 10, 11 and 12. The following paragraphs provide an evaluation of mission
comments on each recommendation.

For Recommendation 1, which is that USAID/Bolivia determine how the remaining budget for
the grants and subcontracts can be best used to effectively implement project activities needed
to achieve intended goals, the mission agreed and is taking steps to realign the IFS program
and reduce the scope of the program from 19 to 9 municipalities. Specifically, the mission will
issue a partial termination of the Abt contract decreasing the number of tasks and the total
estimated contract cost. USAID/Bolivia expects to finalize this recommendation by October 30,
2011. For these reasons, a management decision has been reached.

For Recommendation 2, which is that USAID/Bolivia Office of Acquisition and Assistance
determine the allowability of and collect, as appropriate, questioned costs for the fixed fee
provided in Modification No. 1 to the contract, in the amount of $143,395, the mission agreed
and plans to determine the final reduction of fixed fee in conjunction with the final scope of work,
after decreasing the scope and number of tasks. USAID/Bolivia expects to address this
recommendation by October 30, 2011. For these reasons, a management decision has been
reached.

For Recommendation 3, which is that USAID/Bolivia evaluate the IFS program’s obligations and
deobligate amounts that exceed amounts required for programmatic needs, the mission does
not agree with the recommendation. The mission believes that Abt is now implementing its
projects to the level it will be expected to maintain with the partial termination of the program
addressed in Recommendation 1. Further, at its current spending levels, the mission expects
the $11.5 million obligated will be used before 24 months. The mission plans to ensure that
future incremental funding will not exceed programmatic needs and will comply with forward
funding policies. After considering the mission's planned actions to address recommendations
1 and 2, by October 31, 2011, plus its plans to comply with forward funding policies, a
management decision has been reached.

For Recommendation 4, which is that USAID/Bolivia update the IFS program PMP to clearly
identify the outcome of indicators that will measure achievement of the program goal, the
mission agrees and is reevaluating the IFS program design. The mission intends to significantly
decrease the number of program indicators and ensure that the IFS PMP clearly identifies the
outcome indicators that will measure the achievement of program goals. USAID/Bolivia expects
to complete this work by October 30, 2011. For these reasons, a management decision has
been reached.

For Recommendation 5, which is that USAID/Bolivia update the IFS program PMP to include
definitions for each performance indicator, including the source, method, frequency, and
schedule of data collection, the mission agrees and plans to have complete definitions on final




                                                                                         17

indicators with the revision of the program PMP addressed in Recommendation 4, which will be
completed by October 30, 2011. For these reasons, a management decision has been reached.

For Recommendation 6, which is that USAID/Bolivia evaluate indicators for earmarked funds for
the IFS program and ensure that the indicators are in accordance with the mission strategy and
reporting requirements, the mission agrees and is working to correct inconsistencies in the
health indicators and coordinating reporting requirements. USAID/Bolivia plans to address this
recommendation by October 2011. For this reason, a management decision has been reached.

For Recommendation 7, which is that USAID/Bolivia ensures that an audit of CPTS is
conducted by fiscal year end to ensure the separation of the funds for the separate awards, the
mission agrees and plans to procure an audit, to include pass through funding from the prime
recipient organizations including Abt. USAID/Bolivia anticipates submitting this audit to our
office for review by December 31, 2011. For this reason, a management decision has been
reached.

For Recommendation 8, which is that USAID/Bolivia take steps to enter into a binding
agreement with CPTS to receive the nontransferable, irrevocable, and paid-up license for
equipment and pesticide development under the USAID awards, this mission does not agree
with the recommendation. The mission's reason is that the CPTS agreement ended on June
30, 2011 without successful development of the invention. As well, the mission does not intend
to pursue the use of any equipment or pesticide developed by CPTS with different funding.
After considering the mission's reasons and additional explanation, this recommendation is
considered closed and the mission has taken final action.

For Recommendation 9, which is that USAID/Bolivia evaluate whether or not the already
existing quinoa pesticide could be utilized in the program and if not, obtain an opinion from the
EPA for use of the newly developed pesticide, the mission does not agree with the
recommendation because the pesticide will not be used in the program. Furthermore, the
subgrant with CPTS will be terminated before the planting season. After considering the
mission's reasons and additional explanation, this recommendation is considered closed and
the mission has taken final action.

For Recommendation 10, which is that USAID/Bolivia review Abt subcontracts related to cost-
sharing activities to determine whether subcontractors are overcompensated through
subcontract work that is duplicated by work or cash provided by the community cost share, the
mission agrees and stated that Abt will conduct a review of the subcontract cost-sharing
activities to address this recommendation. USAID/Bolivia expects to receive the results of this
review by December 31, 2011. For this reason, a management decision has been reached.

For Recommendation 11, which is that USAID/Bolivia ensure that Abt provides a monitoring
plan to ensure that community cost-sharing contributions are not abused, the mission agrees
and expects Abt to implement a plan by December 31, 2011. For this reason, a management
decision has been reached.

For Recommendation 12, which is that the USAID’s Office of Acquisition and Assistance
contract with the DCAA to conduct an audit to determine the adequacy of the Abt Associates,
Inc. accounting system, the office agreed with the recommendation and plans to contract for the
audit by September 30, 2011. For this reason, a management decision has been reached.




                                                                                              18
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this performance audit in accordance
with generally accepted government auditing standards.21 Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions in accordance with our audit objectives. We believe that the
evidence obtained provides that reasonable basis. The purpose of the audit was to determine
whether USAID/Bolivia’s Integrated Food Security Program is achieving its intended results.
The Regional Inspector General/San Salvador conducted the audit fieldwork at USAID/Bolivia in
La Paz and at the contractor’s offices and field locations in La Paz, Cochabamba, Caracollo,
Torotoro, Mizque, and Quime from March 9 to 24, 2011.

The audit covered the period from September 30, 2009, to April 15, 2011. In planning and
performing this audit, we included in the audit scope a review of management activities and
controls put in place by USAID/Bolivia and its contractor related to the program activities.

Methodology
To determine whether USAID/Bolivia appropriately managed the program activities, we met with
key USAID/Bolivia personnel and contractor officials to document their roles and responsibilities
in implementing the IFS activities in Bolivia. To gain an understanding of the program’s history
and status, the audit team reviewed, among other things, the pre-program assessment,
contract, negotiation memorandum, contract modifications, various internal correspondence,
progress reports, operating plans, and contractors’ vouchers provided by USAID/Bolivia. We
also reviewed contractor documentation, including subcontracts and subgrant agreements,
various deliverable reports, and contractor procurement policies and procedures. In addition,
we interviewed various USAID/Bolivia staff, including the contracting officer’s technical
representative for the IFS program, the current and former directors of SEGE, the contracting
officer, and Health Office representatives. Interviews were held with the contractor and two of
their key partners.

We also reviewed applicable policies, regulations, and guidelines pertaining to USAID/Bolivia’s
implementation of the program, including USAID ADS, FAR, CFR, and USAID Mandatory
Guidance. We visited site locations in four of the seven municipalities where projects are being
implemented in Caracollo, Torotoro, Mizque, and Quime, as well as one activity in the suburbs
of La Paz, to see the progress being made on the program projects and to interview program
beneficiaries. The projects were judgmentally selected on the basis of their activity level and
accessibility.




21
     Government Auditing Standards, July 2007 Revision (GAO-07-731G).


                                                                                        19

                                                                                  Appendix II



MANAGEMENT COMMENTS 





                    MANAGEMENT COMMENTS 


DATE:	        July 15, 2011

REPLY TO:	 John R. Taber, Contracting Officer, USAID/Bolivia /s/

TO:	          Catherine Trujillo, RIG/San Salvador

SUBJECT:	     USAID/Bolivia’s response to the Audit of USAID/Bolivia’s Integrated Food
              Security Program (Report No. 1-511-11-00X-P)

THROUGH:	 Wayne Nilsestuen, Director, USAID/Bolivia /s/

______________________________________________________________________


Please find attached USAID/Bolivia’s Management Response Letter to RIG/San Salvador’s
Audit Report No. 1-511-11-00X-P. Each of the 12 recommendations in the subject audit report
is copied below, along with USAID/Bolivia’s formal Management Response. Our comments are
provided for incorporation as an appendix to the final released audit report.

We appreciate the opportunity to review and comment on the draft report before it is formally
issued. We would also like to take this opportunity to thank the RIG audit team for their hard
work and support. The recommendations provided will help guide USAID/Bolivia in correcting
the problems identified during the course of the audit.


Recommendation No. 1: We recommend that USAID/Bolivia determine how the remaining
budget for the grants and subcontracts can be best used to effectively implement project
activities needed to achieve intended goals.

Management Response to Recommendation No. 1



                                                                                    20

                                                                                     Appendix II



USAID Bolivia agrees with this recommendation.           Preliminary discussions have been
undertaken with Abt in order to realign the Integrated Food Security (IFS) program and reduce
the scope of the program from 18 to 9 municipalities. USAID/Bolivia will order a partial
termination of the Abt contract and incorporate a modified agreement with a substantial
reduction in the Total Estimated Cost (TEC). The TEC decrease will result in a reduction of the
54 tasks assigned in the original agreement and a quantifiable reduction in the number of
program indicators. USAID/Bolivia has also agreed with Abt’s request to terminate the subgrant
with CPTS. Currently, the Mission is awaiting a new proposal from Abt for the partial termination
discussed above, in order to make final determination on how the remaining budget for the
grants and subcontracts can be best used to effectively implement the project activities.
USAID/Bolivia expects to address this recommendation by October 30, 2011.

Recommendation No. 2: We recommend that USAID/Bolivia Office of Acquisition and
Assistance determine the allowability of and collect, as appropriate, questioned costs for
the fixed fee provided in Modification No. 1 to the contract, in the amount of $143,395.

Response to Recommendation No. 2

USAID Bolivia agrees with this recommendation in principle, though the amount of fee reduction
remains to be determined. A partial termination with a reduction in the program scope will
impact the fixed fee. A final reasonable fixed fee will be determined once the new Abt proposal
has been reviewed. USAID/Bolivia expects to address this recommendation by October 30,
2011.

Recommendation No. 3: We recommend that USAID/Bolivia evaluate the Integrated Food
Security program’s obligations and deobligate amounts that exceed amounts required
for programmatic needs.

Response to Recommendation No. 3

USAID Bolivia does not agree with this recommendation. Abt has now begun launching its
projects to the level at which USAID/Bolivia expects to maintain with the partial termination of
the program discussed above. The most recent implementation, subsequent to the date of the
audit, has demonstrated that Abt has increased its burn rate to around $500,000 per month. At
this rate, at which the program is now spending its funds, the $11.5 million obligated into the
agreement will be used up before the 24 month period discussed in the audit. The Mission will
ensure that any future incremental funding will not exceed programmatic needs and comply with
forward funding policies.

Recommendation No. 4: We recommend that USAID/Bolivia update the Integrated Food
Security program performance management plan to clearly identify the outcome of
indicators that will measure achievement of the program goal.

Response to Recommendation No. 4

USAID Bolivia agrees with this recommendation. The current IFS program Performance
Management Plan (PMP) does not contain clearly defined indicators for measuring the
accomplishment of the program’s stated goal. USAID Bolivia is currently reevaluating the IFS
program design and will revise the overall program objective and significantly decrease the
number of program indictors. During this revision which will conclude October 30,2011, USAID


                                                                                              21
                                                                                     Appendix II


Bolivia will ensure that the IFS PMP clearly identifies the outcome indicators that will measure
achievement of the program goals.

Recommendation No. 5: We recommend that USAID/Bolivia update the Integrated Food
Security program performance management plan to include definitions for each
performance indicators including the source, method, frequency, and schedule of data
collection.

Response to Recommendation No. 5

USAID/Bolivia agrees with this recommendation. The outcome of the revision of the IFS PMP
discussed above will ensure that the requested definitions are included for each indictor. USAID
Bolivia plans to have complete definition on final indicators by October 30, 2011.

Recommendation No. 6: We recommend that USAID/Bolivia evaluate indicators for
earmarked funds for the Integrated Food Security program and ensure that the indicators
are in accordance with the mission strategy and reporting requirements.

Response to Recommendation No. 6

USAID Bolivia agrees with this recommendation. The IFS program received Global Health/Child
Survival earmark funds, that are limited to a specific use and program achievement is reported
through predefined indicators in USAID’s Foreign Assistance Coordination and Tracking System
(FACTS). USAID Bolivia’s Health Office raised a concern that the IFS health indictors are not
consistent with the indicators reported and used by the Health Office and that the results of
these indicators were not reported in the FY 2010 annual results. The Health office and the IFS
program are working to correct the inconsistencies in the health indicators and coordinating
reporting requirements. USAID Bolivia plans to address this recommendation by October, 2011.

Recommendation No. 7: We recommend that USAID/Bolivia ensure that an audit is
conducted of the Center for Promotion of Sustainable Technologies by fiscal year end to
ensure the separation of the funds for the separate awards.

Response to Recommendation No. 7

USAID/Bolivia agrees with this recommendation. The Center for Promotion of Sustainable
Technologies, in addition to receiving funds as a subcontractor of Abt and other USAID prime
recipients, had an ongoing agreement with USAID (GDA Quinoa) that expired June 2011. A
close-out audit through June, which includes pass through funding from other prime recipient
organizations including Abt, is currently being procured. USAID/Bolivia anticipates submitting
this audit to the RIG for review by December 31, 2011.

Recommendation No. 8: We recommend that USAID/Bolivia take steps to enter into a
binding agreement with the Center for Promotion of Sustainable Technologies to receive
the non-transferable, irrevocable, and paid-up license for equipment and pesticide
development under the USAID awards.

Response to Recommendation No. 8

USAID Bolivia does not agree with this recommendation. The CPTS GDA agreement ended on
June 30 2011, without successful development of the desired inventions that would have


                                                                                                 22
                                                                                     Appendix II


required the binding agreement discussed in the finding above. However, USAID has no direct
relationship with CPTS under the IFS program which will be terminated before patentable
inventions have been developed, and USAID Bolivia will not pursue the use of equipment and
pesticide developed by CPTS with different funding. Based on this determination, USAID
Bolivia would like to request closure of this recommendation.
Recommendation No. 9: We recommend that USAID/Bolivia evaluate whether or not the
already existing quinoa pesticide could be utilized in the program and if not, obtain an
opinion from the U.S. Environmental Protection Agency for use of the newly developed
pesticide.

Response to Recommendation No. 9

USAID Bolivia does not agree with this recommendation. The newly developed quinoa
pesticide developed by CPTS has not been utilized and or promoted to farmers in the program
to date. Since the subgrant with CPTS will be terminated before planting season, the newly
developed quinoa pesticide will not be used in the IFS program. Based on this determination,
USAID Bolivia would like to request closure of this recommendation.

Recommendation No. 10: We recommend that USAID/Bolivia review Abt Associates, Inc.,
subcontracts related to cost-sharing activities to determine whether subcontractors are
overcompensated through subcontract work that is duplicated by work or cash provided
by the community cost share.

Response to Recommendation No. 10

USAID/Bolivia agrees with this recommendation. Abt will review subcontract cost-sharing
activities to determine potential duplication and or overcompensation in projects requiring
community contributions. The results of the review will be reported to the Mission cognizant
COTR by December 31, 2011.

Recommendation No. 11: We recommend that USAID/Bolivia ensure that Abt Associates,
In., provides a monitoring plan to ensure that community cost-sharing contributions are
not abused.

Response to Recommendation No. 11

USAID Bolivia agrees with this recommendation. USAID Bolivia will request that Abt design a
monitoring plan to ensure that subcontract cost-sharing contributions are not abused. A plan
will be implemented by December 31, 2011.
Recommendation No. 12: We recommend that USAID’s Office of Acquisition and
Assistance contract with the Defense Contract Audit Agency to conduct an audit to
determine the adequacy of the Abt Associates, Inc. accounting system.

Response to Recommendation No. 12

This recommendation is for action with the Office of Acquisition and Assistance in Washington.




                                                                                               23
                                                                                             Appendix II




                                                                                 July 21, 2011

MEMORANDUM FOR:                 Catherine Trujillo, RIG/Bolivia

FROM:           Beverly Jackson, Acting Team Leader, M/OAA/CAS

SUBJECT         Audit of USAID/Bolivia’s Integrated Food Security Program, implemented under
                a contract with Abt Associates, Inc., OIG Audit Report No. 1-521-11-00X-P


Results of Audit

The Regional Inspector General conducted an audit to determine whether USAID/Bolivia’s Integrated
Food Security program is achieving its intended results of increasing food security and decreasing chronic
malnutrition in rural areas.

Recommendation No. 12:

Katherine Swanson, Acting OIG/RIG/San Salvador recommends that USAID’s Office of Acquisition and
Assistance contract with the Defense Contract Audit Agency to conduct an audit to determine the adequacy
of the Abt Associates, Inc. accounting system.

USAID Office of Acquisition and Assistance’s Response:

The Office of Acquisition and Assistance concurs with the recommendation. USAID’s Office of
Acquisition and Assistance, Cost, Audit and Support will contract with Defense Contract Audit
Agency to conduct an accounting system audit of Abt Associates, Inc. We will forward the
request by September 30, 2011.

Should you or members of your staff have any questions concerning this matter, please contact Beverly
Jackson at (202) 567-4609 or by email at bjackson@usaid.gov.




                                                                                                        24
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig


                                              25
